                                                                      ~,;.~' OF Co
                                                                 ~V"

     s. DEPARTMENT OF COMMERCE                                 rJ.
                                                              f!


             Office of Inspector General                         ~C
                                                                                        lit
                                                                      oS?iilTES of to




t'

     UNITED STATES TENT AND           P A




     TRADEMARK OFFICE (USPTO)




       Minor Improvements Needed in Reporting
                         Pe11ormance Results


      Final Audit Report No. FSD- 14429/March 2002




                     PUBLIC RELEASE



          Office of Audits , Financial Statements Audits Division
                                ~OF
                                                UNITED STATES DEPARTMENT OF COMMERCE
                                  1liiJ ;       The Inspector General
                                  lTJ.    lii   Washington, D.   c. 20230
                                     di




                                                      MAR 2 1 2002




MEMORANDUM FOR:                James E. Rogan
                               Under Secretary for Commerce for Intellectual
                                Property and Director of the USPTO


FROM:


SUBJECT:                       Minor Improvem 1s Needed in Reporting
                               Performance Results
                               Final Audit Report No. FSD- 14429

This is our final report on the performance measures at the United States Patent and Trademark Office
(USPTO). During the audit , we noted a strong commitment on the part of the bureau to report
accurate performance data. However, there are some additional steps that can be taken by the bureau
to enhance the ,?-redibility of the data reported by the Department of Commerce and the bureau.
Specifically, we found that the criteria for measuring technical assistance activities should be updated
and ~at the discussion of verification and validation procedures included in reports submitted by the
Department and bureau should more accurately describe the level of review performed.

We recommend that corrective action be taken to ensure that (1) criteria for technical assistance
activities to developing countries and countries moving to a market economy be updated, and (2) the
description of verification procedures for patent and trademark performance measures reported in the
Department' s Annual Performance Plan and Annual Program Performance Report be revised to more
accurately and. completely describe the procedures performed.


In responding to the draft report , the Comptroller and Deputy Chief Financial Officer stated that
USPTO agrees with both recommendations and that corrective actions have already been taken.
have incorporated the USPTO comments into the final report and the complete USPTO response is
attached.

Please provide your action plan addressing the recommendations for our concurrence within 60 days of
this memorandum , in accordance with Department Administrative Order (DAO) 213- 5. The plan
should be in the format of exhibit 7 of the DAO. Should you have any questions regarding preparation
of the action plans , please contact me at (202) 482- 1934 , or Thomas McCaughey, Director , Financial
us. Department of        Commerce                                                           Final Report No. FSD- 14429
Office of Inspector General                                                                                         March 2002




Statements Audits Division, at (202) 482- 6044 , within 10 days of the date of this report.
appreciate the cooperation and courtesies extended to us by USPTO staff during the review.

                                                   INTRODUCTION

This fmal report presents the results of the OIG' s audit of the United States Patent and Trademark
Office s collection and reporting of performance measurement data. In its efforts to meet the
requirements of the Government Performance and Results Act (GPRA) of1993 and the Chief Financial
Officers Act of 1990 , as amended by the Government Management Reform Act (()MRA) of 1994
and the Reports Consolidation Act of2000 , the Department of Commerce reports USPTO'
performance results. To be useful to Congress , the Office of Management and Budget, and the public
the performance data must be credible. We performed our review to examine USPTO' s efforts to
ensure that reported performance results could be relied upon.

GPRA was enacted in 1993 to improve the effectiveness , efficiency, and accountability of federal
programs by requiring federal agencies to set goals for program performance and to report on annual
performance compared with the goals. In FY 2001 , the Department chose to combine the FY 2000
Annual Program Performance Report (APPR) and the FY 2002 Annual Performance Plan (APP), into
one document. /The FY 2000 APPR was the Department' s second effort to report and comment on
performance results while the FY 2002 APP was its fourth effort to identify target performance results.
USPTO performance data was also presented in the Department's FY 2000 Accountability Report
and in the bureau s financial statements.

USPTO' s mission is to promote industrial and technological progress in the United States and
strengthen the economy by administering the laws relating to patents and trademarks and advising the
Secretary of Commerce , the President of the United States , and the administration on all domestic and
global aspects of intellectual property. 2 In support of its mission, USPTO reported on six performance
measures in the Department's combined FY 2000 Annual Program Performance Report and the FY
2002 Annual Performance Plan. (See Table 1. ) The bureau included seven performance measures in
its FY 2001 Annual Performance Plan. Also , the Department reported two of these measures (average
pendency time to issue/abandonment for patents and the average time to examiner s first action for
trademarks) in its FY 2000 Accountability Report. USPTO' s performance measUres and the
documents they were presented in, are summarized in the following chart:


                                     of2000 authorizes the streamlining and consolidation of certain statutory fInancial
       ! The Reports Consolidation Act
        management and perfonnance results into a single accountability document


         USPTO Perfonnance and Accountability Report: Fiscal Year 2000
    S.   Department of Commerce                                                    Final Report No. FSD- 14429
Office of Inspector General                                                                       March 2002




                                                             TABLE 1

                                                                     FY 2000
                                                                     Annual        FY 2001       FY 2002
 USPTO                                              FY 2000          Program       Annual        Annual
 Performance                                        Accountability   Performance   Performance   Performance
 Measure                                            Report           Report        Plan          Plan
 Increase technical assistance to developing
 countries and countries moving to a market
 economy: Number of technical assistance
 activities completed

 Percent of customers satisfied overall (P)



 Average pendency to issue/abandonment
 (months) (P)


 Percent of customers satisfied overall (T)



 Average time to examiner s fIrSt action
 (months) (T)


 Average time to disposal or registration
 (months) (T)


 Cycle time of inventions processed




 Percent key products and services meeting
 schedules or cycle time of standards

 Customer satisfaction with key products and
 services

 (1)) = Patent m    = Trademark (months)"" unit of measure



To be useful in reporting on the fulfillment of GPRA requirements and in improving program results
performance data must be reliable. To ensure that users such as the Congress and OMB can have
confidence in the reported performance information, GPRA requires data verification and validation, as
quality control mechanisms. According to the General Accounting Office , verification is the assessment
   S.   Department of Commerce                                                            Final Report No. FSD- 14429
Office of Inspector General                                                                                          March 2002




of data completeness , accuracy, consistency, and related quality control practices , while validation is
the assessment of whether the data are appropriate for the performance measure.

In their comments on government-wide implementation of GPRA , both Congress and the General
Accounting Office have articulated the importance of performance data being credible. Management
the reporting entity is responsible for establishing policies and procedures to ensure that data can be
relied upon.

USPTO uses a number of internal controls to ensure that the data it reports is reliable. For example
USPTO demonstrates its commitment to data quality through the assignment of clear responsibilities for
data and the inclusion of a quality control element in employee performance plans. FUrthermore, to
ensure data quality, the bureau employs edit and validation checks within systems that process patent
and trademark data. Also , patent examiners and trademark attorneys responsible for the input of data
receive extensive legal , technical , and automation training.



                            OBJECTIVE~,            SCOPE, AND METHODOLOGY

The audit objectives were to (1) assess collection and reporting ofUSPTO performance information in
documents submitted to meet GPRA reporting requirements (i. , the FY        2000   Annual Program
PerfoImance Report and the FY 2002 Annual Performance Plan) and (2) determine whether internal
controls are sufficient to ensure performance data are accurate , consistent , and reliable. We didnot
seek to determine whether USPTO performance measures are the most appropriate for the bureau.
We focused on performance measures included in the Department' s efforts to satisfy GPRA
requirements and on efforts to ensure data quality and reliability.

We performed our review from July 2001 to September 2001 , by interviewing USPTO officials and
contractors responsible for generating, maintaining, and reporting the performance data; identifying and
testing internal controls surrounding the performance measures; assessing USPTO' s commitment to
data reliability; and performing procedures to validate and verify performance data. We did not rely on
computer-processed data to achieve the audit objectives. Our fieldwork was conducted at the
USPTO headquarters in Arlington, Virginia.




          Perfonnance Plans: Selected Approaches for Verification and Validation of Agencv Perfonnance Infonnation
          (GAO/GGD- 99- 139 July 30 1999).
     S.   Department of Commerce                                                      Final Report No. FSD- 14429
Office of Inspector General                                                                          March 2002




More specifically, in conducting our work, we also did the following:

            For the performance measure on the number of completed technical assistance activities on
            behalf of developing countries and countries moving to a market economy, we reviewed 65 out
            of a universe of 106 activities reported for FY 2000.

            For the performance measures on the percentage of customers satisfied overall, we visited and
            interviewed the independent contractor responsible for conducting the USPTO FY 2000
            customer satisfaction surveys. We also sampled 251 of 2 344 survey questionnaires for patents
          . and 264 of 362 survey questionnaires for trademarks.

            For the performance measures on average pendency to issue/abandonment, average time to
            examiner s first action, and average time to disposal' or registration " we obtained an
            understanding and reviewed general internal controls over the systems generating the
            performance data, and interviewed USPTO officials responsible for generating, maintaining,
            and reporting the performance data.

This audit was conducted in accordance with           Government Auditing Standards            issued by the
Comptroller General of the United States , and was performed under the authority of the Inspector
General Act of 1978 , as amended , and Department Organizational Order 10- , dated May 22 , 1980
as' amended.


                                          FINDINGS AND RECOMMENDATIONS

            Criteria for Measuring Technical Assistance Activities Needs Updating

USPTO needs to update the criteria it uses in reporting on the performance measure that focuses on the
increase in technical assist~ce to developing countries and countries moving to a market economy. We
found that the criteria USPTO used to collect the data relat€?d to this measure did not specify how to
determine which countries were "developing. " In addition, we found that the criteria provided to us
dated August 1997 sti11listed two countries that were no longer considered " developing" by USPTO.
Although techriical assistance provided to these two countries was not included m FY 2000 reported
results , USPTO should ensure that the criteria it uses reflects the current list of developing countries.
us. Department of    Commerce                                           Final Report No. FSD- 14429
Office of Inspector General                                                               March 2002




Effective management control requires that written procedures used by management be current and
properly documented.

To meet the provisions of the agreement on Trade-Related Aspects of Intellectual Property Rights
(TRIPs), the USPTO , through its Office of Legislative and International Affairs (OLIA), provides
seminars and technical training to officials in developing countries on reforming their intellectual property
structures. TRIPs requires all members of World Trade Organizations to provide certain standards of
protection for patents , copyrights , trademarks , and other intellectual property rights. Training
technical assistance activities to be reported for the measure include (1) sessions performed atthe
USPTO , (2) on-site lectures in developing countries , (3) radio or teleVised broadcasts to ' developing
countries , and (4) legal advice on review oflaws.

Criteria provided by the bureau does not specify how to identify developing countries to be used for
measuring performance during a given year. A USPTO official informed us that the list of developing
countries can come from different sources , such as the United Nations , the World Bank, and the U. S.
Department of State, and varies year to year depending on the source. Two technical assistance
activities (for the Czech Republic and Israel) were properly excluded from the FY       2000 results
because USPTO did not consider those countries to be "developing, " even though they were listed as
developing countries on the USPTO' s criteria list, dated August 1997 , that was provided to us.
Although such a result did not occur in this case , the use of the incorrect criteria could potentially result
in inaccurate information being presented to the public.

OMB Circular A- 123 Management Accountability and Control identifies internal controls as the
organization, policies , and procedures used by agencies to reasonably ensure that reliable and timely
information is obtained, maintained, reported , and used for decision making.

Without clear and current criteria to determine which technical assistance activities should be included in
reported results , the potential exists for the reporting of inaccurate or inconsistent data, thus reducing
the credibility of the reported information. As a result, the bureau should take steps to ensure that its
criteria are documented and updated on a regular basis.

Recommendation

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of the
USPTO ensure that criteria for technical assistance activities to developing countries and countries
moving to a market economy be clearly documented and updated on a regular basis.
us. Department of    Commerce                                          Final Report No. FSD- 14429
Office of Inspector General                                                              March 2002



Comptroller and Deputy Chief Financial Officer Response and OIG Comments

In her written response to the draft report, the Comptroller and Deputy Chief Financial Officer for
USPTO agreed with the recommendation and noted that corrective action has been taken~ The
response stated that the Office of Legislative and International Affairs is updating' the list identifying
developing countries on a regular basis and is documenting any additions or deletions to the list as
needed. We commend USPTO for its prompt response in addressing this recommendation.

II.     Improvements in Reporting       of Performance    Informationis Needed

USPTO' s discussion of its procedures to ensure the reliability of the GPRA data it provides the
Department needs to be revised. Specifically, we found that the discussion of verification and validation.
within the Department' s FY 2000 Annual Program Performance Report and FY 2002 Annual Program
Performance Plan did not appropriately articulate the level of review provided for reported
performance measures related to patents and trademarks.

The' combined APPRIAPP incorrectly stated that the annual financial statement audit serves as a
 verification method" for providing assurances on the internal controls over the reported performance
measures. , For the performance measures relating to the percent of customers satisfied overall (patent
and trademark), average pendency to issue/abandonment (patent), average time to examiner rust
action (trademark), and average time to disposal or registration (trademark), USPTO reported that
completeness and existence of supporting data is verified during the annual financial statement audit.
USPTO was unaware that the financial statement audit did not verify the performance measures

In fact, the procedures performed on the' performance meas ~es during the fmancial statement audit
were- limited and did not verify the accuracy of the performance data. The Independent Auditor
Report on Internal Control , dated December 29, 2000 , stated Our procedures were not designed to
provide assurance on internal control over reported performance measures, and, accordingly, we do
not provide an opinion on such controls.

We also found that USPTO' s "tests for reasonableness" on reported data performed internally are left
undefined. The Department' s FY 2000 APPR and FY 2002APP notes that for each performance
measure reported, a fmal test for reasonableness is performed internally. However, there is no
discussion of who completes the tests for reasonableness and what constitutes a test for
reasonableness. Without a complete discussion of verification procedures , it is difficult to assess the
extent to which data was reviewed.
     S. Department of Commerce                                     Final Report No. FSD- 14429
Office of Inspector General                                                         March 2002



The overall effect of the bureau s discussion of verification procedures is that readers of the
Department' s APPR and APP were left with an incomplete and misleading discussion of the level of
review that had been performed of the performance measures.

Reporting verification procedures helps to' ensure that data will be credible to potential users. For
verification and validation of performance data, the Office of Management and Budget (OMB) Circular
      , Section 220. , states " The means used should be sufficiently credible and specific to support
the general accuracy and reliability of the performance information.

Recommendation

We recommend that the Under Secretary of Commerce for Intellectual Property and Director of the
USPTO require that the description of verification procedures for patent and trademark performance
measures reported in the Department' s Annual Performance Plan and Annual Program Performance
Report be revised to more accurately and completely describe the procedures performed.

Comptroller and Deputy     Chief Financial   Officer Response and OIG Comments

In her written response to the draft report, the Comptroller and Deputy Chief Financial Officer agreed
with the recommendation and noted that corrective action has already been taken. The response states
that.the Office of Corporate Planning has drafted new language describing the verification procedures
for patent and trademark performance measures. The new procedures are identified in the Department
of Commerce FY 2003 Annual Performance Plan/200 1 Annual Perfonnance Report and in USPTO' s
FY 2001 Performance and Accountability Report. We commend USPTO for its prompt response in
addressing this recommendation.
~11
 .w, UNITED
     PATENT AND
                     STATES

  rIf*   TRADEMARK OFFICE

                                                                   . Chief Financial Officer and Chief Administrative Officer
                                                                                                   Washington, DC 20231
                                                                                                          www. uspto. gov




                                                                                    MAR -, 2002



           MEMORANDUM FOR:              Larry R Gross
                                        Acting Inspector General for Auditing
          FROM:                         SandtaL. Weisman
                                        Comptroller and Deputy Chief Financial Officer
          SUBJECT:                      Comments on OIG Draft Report: "Minor Improvements
                                        Needed in Reporting Performance Results
                                        No. FSD- 14429


          Thank you for the opportunity to review and comment on the subject draft report.
          management and employees at the USPTO are strongly committed in assuring the Both
          accuracy and reliability of our performance data and we appreciate the OIG'
          of this fact as1ri.entioned in your report.                                 s recognition

         USPTO agrees with both of your recommendations and corrective actions have already
         been taken. The Office of Corporate Planning has
                                                             drafted new language describing the
         verification procedures for patent and trademark performance measures. The new
         verification procedures are identified in the Department
                                                                  ofCommerceFY 2003 Annual
         Performance Plan/2001 Annual Performance Report and in the USPTO'
         Performance and Accountability Report.
                                                                                      s FY 2001
                                                      With regard to the recommendation on ensuring
         the list identifying developing countries is current
                                                              , the Office of Legislative and
         International Affairs is updating the list on a regular basis and is documenting any
         additions or deletions to the list as needed.

         We appreciate the cooperation and respect for USPTO'
                                                                s work demonstrated by your
         staff. If you h~ve any further comments, please call my office on 703-
                                                                                305- 9200.


                                                      ~C(
